WAIVER

Supreme Court of the United States

No. 19-476
Usha Jain, et vir v: David Barker, et al.
(Petitioners) (Respondents)

IDO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless
one is yequested by the Court.

Please check the appropriate boxes:
Please enter my appearance as Counsel of Record for all respondents.

W There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

Bay Hill Property Owners Association, Inc.

 

 

O lam amember of the Bar of the Supreme Court of the United States.

38 1am not presently a member of the Bar of this Court. Should a response be requested,
the response will be filgd by a Bar member, / ff

  

 

paws Woembbe /8 “2019
(Type or print) Name__Mya M. Hatchette, Esquire

OM, O Ms. DO Mrs. D Miss

Fi Winderweedle Haines Ward & Woodman PA

 

Address_ P.O. Box 880

 

City & State_ Winter Park, FL 32789

Zip

407-246-8696 Email: mhatchette@whww.com
Phone

 

SEND A COPY OF THIS FORM TO PETITIONER'S COUNSEL OR TO PETITIONERS IF
PRO SE, PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO-ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

Co: Dr. Usha Jain
Manohar Jain

Obtain status-of case on the docket. By phone at 202-479-3034 or via the internet at
http://www:supremecourtus.gov. Have the Supreme Court docket number available.

 
